15.)

CERTIFICATE OF SERVICE
05/21/2021
William Shecoby Palmer sent all Interested Parties for cause no: a copy for of these
Pleadings on 01/30/2021 by placing a copy In The United States Postal By Certified Mail
Address to:
l.)Clerk Of The United States Supreme Court
1 First Street NE Washington Dc 20543
Certified Mail Receipt No: Hand Delivered
2.)Lake County Indiana Clerks Office
2293 North Main Street Crown Point Indiana Zip Code 46307
Certified Mail Receipt No: 7021-0350-0002-1811-9659
3.)Counsel James Dillion For Petitioner In Rem Harolyn Williams
P.O.BOX 14223 Merrillville Indiana 46411
Certified Mail Receipt No: 7021-0350-0002-1811^9642
Signature:
Word Count Certificate
The following are acceptable word count certifications:
William Shecoby Palmer verify that this brief (or Petition) contains no more than (applicable limit) words/' and
"I verify that this brief (or Petition) contains (6,937) words." The certification shall appear at the end of the brief
or Petition before the certificate of service. The attorney or the unrepresented party certifying a word count
may rely on the word count of the word processing system used to prepare the brief or Petition.
State of Indiana Oath Affirmation Indiana Code 35-34-1-2.4 05/21/2021
I William Shecoby Palmer swear,and (affirm),under penalty of perjury as specified by :
1C 35-44.1-2-4 that the foregoing (the following) representations are true, true to the best of
knowledge in law ,and this not the signature last word on this legal matter William Shecoby Palmer is
a non lawyer in Sui Jurist Capacity See HAINES V.KERNER .
William Shecoby Palmer understands this action is In Rem ,and ask
THE UNITED SUPREME COURT to take notice to UCC 1-207 & UCC 1-103.6.

hhii

Signed
All Inalienable Right Reserve To The Constitution The United States Of America

